SIGAR                                                       Special Inspector General for
                                                             Afghanistan Reconstruction




                                                                           SIGAR Audit 13-12




   Department of State’s Assistance Awards for
   Afghanistan Reconstruction Activities Are
   Largely Unaudited




                                                                                  JULY
                                                                               2013
SIGAR Audit 13-12/State Department Grants and Cooperative Agreements
SIGAR
                                                July 2013
                                                Department of State’s Assistance Awards for Afghanistan Reconstruction Activities Are
                                                Largely Unaudited

                                                SIGAR AUDIT 13-12
Special Inspector General for
Afghanistan Reconstruction
                                                 WHAT SIGAR FOUND
WHAT SIGAR REVIEWED                              OMB Circular A-133, Audits of States, Local Governments and Non-Profit
                                                 Organizations, outlines audit requirements for ensuring that federal funds provided to
Since 2002, the Department of State has
                                                 non-federal entities are properly expended. Specifically, OMB Circular A-133 requires
provided $6 billion in appropriated funds
                                                 that U.S. nonprofit organizations spending more than $500,000 or more in federal
for Afghanistan reconstruction. State is
                                                 funds in a year obtain either a single or program-specific audit conducted by an
responsible to Congress and U.S.
                                                 independent auditor. During the A-133 audit process, auditors are required to identify
taxpayers for the efficient and effective
                                                 each federal award and determine whether that award constitutes part of a major
use of federal funds. For example, it is
                                                 program. According to OMB Circular A-133, auditors should use a risk-based
required to ensure that awards to
                                                 approach─to include consideration for a program’s funding amount and prior audits
nonprofit organizations follow cost
                                                 results─to determine which federal programs are “major” programs.
principles established by the Office of
Management and Budget (OMB). State               According to State Department records, between fiscal year 2002 and fiscal year
policy also notes that audits of assistance      2011, the department made 140 awards over $1 million for reconstruction activities
funds support essential federal                  in Afghanistan with a total estimated value of $315.3 million. Financial audits were not
stewardship responsibilities and can be an       conducted for 99 of those 140 assistance awards. The 99 unaudited awards had
effective and valuable tool for monitoring a     disbursed a combined total of $191.6 million. Although financial audits were not
recipient organization’s financial               necessarily required for many of these 99 awards, the use of financial auditing could
performance. According to the U.S.               have better ensured State’s proper stewardship of the $191 million disbursed through
Government Accountability Office, financial      these awards.
audits provide independent, objective,
                                                 The reasons that financial audits were not conducted varied by award recipient type.
nonpartisan assessments of the
                                                 For example:
stewardship, performance, or cost of
government policies, programs, or                     •   50 of 65 awards to foreign organizations were not audited because State has
operations.                                               not established a department-wide policy requiring that these organizations’
                                                          awards be audited. Rather, individual bureaus have established their own
Recognizing that financial audits play an
                                                          policies, leading to inconsistent audit requirements within the agency.
important role in ensuring that funds are
                                                      •   42 of 68 awards to U.S. nonprofit organization were not audited because
properly spent and accounted for, SIGAR
                                                          they were not considered “major programs.” Moreover, three organizations
initiated this audit to examine the extent to
                                                          receiving three separate awards did not have A-133 audits conducted (even
which financial audits were conducted for
                                                          though they spent more than $500,000 in federal funds), because State did
140 State-funded grants and cooperative
                                                          not provide clear guidance to the awardees. As a result, the three awards
agreements, each valued at $1 million or
                                                          provided to them were not audited.
more, for Afghanistan reconstruction from
                                                      •   4 awards to for-profit companies were not audited because State has not
2002 to 2011.
                                                          clearly articulated whether these awards are required to be audited.
WHAT SIGAR RECOMMENDS                                 •   3 awards to public international organizations were not audited because the
                                                          decision to audit rests with the recipient organizations, none of whom
SIGAR makes four recommendations to                       requested audits of these particular awards.
the U.S. Secretary of State to improve
                                                 As part of its oversight mandate, SIGAR has initiated a number of financial audits of
accountability over its assistance awards
                                                 contracts, grants, and cooperative agreements funded by State, Department of
for Afghanistan reconstruction.
                                                 Defense, Department of Agriculture, and the U.S. Agency for International
In its comments on a draft of the report,        Development. Of the 99 awards that State has not audited, SIGAR is conducting
State generally agreed with SIGAR’s              financial audits on 8 awards, valued at $27 million, provided to 2 foreign
recommendations and noted that the               organizations. The results of these audits will be made available later this year.
report highlighted the need for State to
enhance the oversight of federal
assistance in the overseas environment.


        For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil
July 8, 2013


The Honorable John F. Kerry
Secretary of State

The Honorable James B. Cunningham
U.S. Ambassador to Afghanistan


This report discusses the results of our review that examined the extent to which financial
audits were conducted for State-funded grants and cooperative agreements, each valued at
$1 million or more, for Afghanistan reconstruction from 2002 to 2011. We are making four
recommendations to the Secretary of State to help strengthen the department’s accountability
over such funds.
In its written comments on a draft of the report, State generally agreed with our
recommendations. Its comments are reprinted in appendix VI.
We conducted this performance audit under the authority of Public Law No. 110-181, as
amended, and the Inspector General Act of 1978, as amended, in accordance with generally
accepted government auditing standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                            TABLE OF CONTENTS

Background .................................................................................................................................................................. 2

Assistance Awards Totaling $191.6 Million in Disbursements Have Not Been Audited ......................................... 3

Conclusion.................................................................................................................................................................... 7

Recommendations ...................................................................................................................................................... 7

Agency Comments ....................................................................................................................................................... 8

Appendix I - Scope and Methodology ......................................................................................................................... 9

Appendix II - State-Funded Assistance to Foreign Organizations ............................................................................ 11

Appendix III - State-Funded Assistance to U.S. Nonprofit Organizations ................................................................ 13

Appendix IV - State-Funded Assistance to For-Profit companies ............................................................................ 16

Appendix V - State-Funded Assistance to Public International Organizations ....................................................... 17

Appendix VI - Agency Comments ............................................................................................................................... 18

Appendix VII - Acknowledgments .............................................................................................................................. 21


TABLES

Table 1 - State Assistance Awards for Afghanistan Reconstruction from 2002 to 2011 ....................................... 3
Table 2 - State Assistance Awards to Foreign Organizations Not Audited ............................................................... 4

Table 3 - State Assistance Awards to U.S. Nonprofit Organizations Not Audited..................................................... 6

Table I - State Assistance Awards to Foreign Organizations, Valued at $1 Million or More
     (2002-2011 in $ million) .................................................................................................................................. 11

Table II - State Assistance Awards to Nonprofit Organizations, Valued at $1 Million or More
     (2002-2011 in $ million) .................................................................................................................................. 13

Table III - State Assistance Awards to For-Profit Companies, Valued at $1 Million or More
     (2002-2011 in $ million) .................................................................................................................................. 16

Table IV - State Assistance Awards to Public International Organizations, Valued at $1 Million or More
     (2002-2011 in $ million) .................................................................................................................................. 17
ABBREVIATIONS & ACRONYMS

        AQM                  State/Logistics Management/Acquisitions

        INL                  State/International Narcotics and Law Enforcement

        OMB                  U.S. Office of Management and Budget

        PAS                  State/Public Diplomacy Bureau/Public Affairs Section

        PM/WRA               State/Political-Military Bureau’s Office of Weapons Removal and Abatement

        PRM                  State/Bureau of Population, Refugees, and Migration

        State                U.S. Department of State




SIGAR Audit 13-12/State Department Grants and Cooperative Agreements                                Page iii
Since 2002, the Department of State has provided $6 billion in appropriated funds for Afghanistan
reconstruction. Among other things, recipient organizations use State funds to provide health services and
education, promote economic growth and governance, and pay for the construction of infrastructure.
State is responsible to Congress and U.S. taxpayers for the efficient and effective use of federal funds. For
example, State is required to ensure that awards to nonprofit organizations follow cost principles established
by the Office of Management and Budget (OMB). 1 State policy notes that audits of assistance funds support
essential federal stewardship responsibilities and can be an effective and valuable tool for monitoring a
recipient organization’s financial performance. According to the U.S. Government Accountability Office,
financial audits provide independent, objective, nonpartisan assessments of the stewardship, performance, or
cost of government policies, programs, or operations. 2
Recognizing that financial audits play an important role in ensuring that funds are properly spent and
accounted for, SIGAR initiated this review to examine the extent to which financial audits were conducted for
State-funded grants and cooperative agreements for Afghanistan reconstruction from 2002 to 2011.
To accomplish our objective, we reviewed 140 grants and cooperative agreements (hereafter referred to as
“assistance awards”), each valued at $1 million or more, that State awarded to 61 non-federal entities for
Afghanistan reconstruction from 2002 to 2011. We categorized the entities into four types: foreign
organizations, U.S. nonprofit organizations, U.S. for-profit companies, and public international organizations. 3
We reviewed laws, regulations, policies, standard operating procedures, and other guidance to determine
State’s requirements to conduct financial audits of its assistance awards. In particular, we reviewed OMB
Circular A-133, Audits of States, Local Governments and Non-Profit Organizations and State’s Guidelines for
Application and Administration for Federal Assistance Awards and Federal Assistance Policy Handbook. We
also interviewed State officials in multiple bureaus and offices and met with officials representing four U.S.
nonprofit organizations and two public international organizations. We conducted our work in Kabul,
Afghanistan, and Washington, D.C., from July 2012 to June 2013, in accordance with generally accepted
government auditing standards. A discussion of our scope and methodology is in appendix I.




1   See Office of Management and Budget Circular A-122, Cost Principles for Non-Profit Organizations.
2 See U.S. Government Accountability Office, Government Auditing Standards, Sections 1.01 and 1.02, GAO-07-731G,

July 2007.

3 Foreign organizations—organizations based overseas that are not subject to federal regulations but are subject to state
regulations; U.S. nonprofit organization—a corporation, trust, association, cooperative, or other organization that is
operated primarily for educational, service, charitable, or similar purposes in the public interest receiving financial
assistance directly from federal awarding agencies to carry out a project or program; U.S. for-profit companies—
organizations operated primarily for profit that are receiving federal funding and are subject to incurred costs audits by the
Defense Contract Audit Agency; public international organizations—organizations composed of member nations whereby
some are inter-governmental (e.g., the United Nations), and some are non-governmental with multiple worldwide or regional
purposes (e.g., European Union). Public international organizations are not subject to federal regulations.




SIGAR Audit 13-12/State Department Grants and Cooperative Agreements                                                  Page 1
BACKGROUND

OMB Circular A-133, Audits of States, Local Governments and Non-Profit Organizations, outlines audit
requirements for ensuring that federal funds provided to non-federal entities are properly expended. 4
Specifically, OMB Circular A-133 requires that U.S. nonprofit organizations spending more than $500,000 or
more in federal funds within the organizations’ fiscal year obtain either a single or program-specific audit
conducted by an independent auditor for that year. 5 A single audit (generally referred to as an A-133 audit) is
intended to provide a cost-effective audit for non-federal entities in that one audit is conducted in lieu of
multiple audits of individual programs. However, because A-133 audits cover financial activities of an entire
entity, they generally do not provide detailed financial information on specific federal awards, such as those
provided for Afghanistan reconstruction.
During the A-133 audit process, auditors may review expenditures made under specific federal awards, but the
extent of such reviews depends largely on the amount of funding received under that assistance award relative
to the total amount of federal funding received from other sources. Auditors conducting A-133 audits are
required to identify each federal award and determine whether that award constitutes part of a major program.
According to OMB Circular A-133, auditors should use a risk-based approach to determine which federal
programs are “major” programs. In using the risk-based approach, the auditor should consider the funding
level of a specific program relative to the funding the organization receives, whether or not the program was
recently audited as a major program, and prior audit findings.
Expenditures under major programs are examined during A-133 audits, whereas expenditures under non-major
programs are typically disclosed but not audited. At the conclusion of an A-133 audit, the recipient organization
must file a copy of the audit report with the Federal Audit Clearinghouse within 9 months of the end of the
period audited or 30 days after the receipt of the completed audit (whichever is first).
Notwithstanding the requirement for annual audits, OMB Circular A-133 states that its provisions do not limit a
federal agency’s authority, including Inspectors General and the U.S. Government Accountability Office, to
conduct or arrange for additional audits (e.g., financial audits, performance audits, evaluations, inspections, or
reviews). Thus, State could, at any time, conduct additional financial audits of its Afghanistan reconstruction
awards.
Federal agencies often issue their own guidance that further clarifies how audit requirements detailed in OMB
Circular A-133 might apply to their agency-specific awards. For example, although A-133 audit requirements do
not apply to foreign organizations, State’s Guidelines for Application and Administration for Federal Assistance
Awards, as revised September 20, 2011, state that foreign organizations receiving assistance awards may be
audited during the award’s period of performance and up to 3 years after the award’s closeout. Accordingly,
these foreign organizations must keep their financial records for at least 3 years after the closeout report to
accommodate potential audit requirements.
As part of its oversight mandate, SIGAR has initiated a number of financial audits of contracts, grants, and
cooperative agreements funded by State, Department of Defense, Department of Agriculture, and the U.S.
Agency for International Development. Of the 99 awards that State has not audited, SIGAR is conducting
financial audits on 8 awards, valued at $27 million, provided to 2 foreign organizations. The results of these
audits will be made available later this year.



4 In conducting A-133 audits, auditors examine the recipient’s financial records, financial statements, general management

of its operations, internal control systems, and expenditures of federal assistance received during the audit period.
5 OMB has recently proposed, among other things, to raise the audit threshold from $500,000 to $750,000 received in a

fiscal year. OMB’s proposal is open for public comment until June 2013.




SIGAR Audit 13-12/State Department Grants and Cooperative Agreements                                               Page 2
ASSISTANCE AWARDS TOTALING $191.6 MILLION IN DISBURSEMENTS HAVE
NOT BEEN AUDITED

According to State records, between fiscal year 2002 and fiscal year 2011, the department made 140 awards
over $1 million, with a total estimated value of $315.3 million. 6 Financial audits were not conducted for 99 of
those 140 assistance awards. The 99 unaudited awards had disbursed a combined total of $191.6 million. 7
The extent to which financial audits were conducted on State’s assistance awards varied depending on the
type of organization receiving the funds. For example, 42 of 68 assistance awards (62 percent) provided to
U.S. nonprofit organizations have not been audited, and 50 of 65 awards (77 percent) provided to foreign
organizations have not been audited. Moreover, none of the seven assistance awards provided to U.S. for-profit
companies and public international organizations have been audited (four were provided to U.S. for-profit
companies and three were provided to public international organizations). Table 1 summarizes the results of
SIGAR’s review by type of organization, total number of awards issued, total award value, number of awards
not audited, and amount disbursed under unaudited awards.

 Table 1 - State Assistance Awards for Afghanistan Reconstruction from 2002 to 2011
                                                         Total Value of
                                         Total             Awards ($              Awards Not          Amount Disbursed Not
      Type of Organization              Awards             millions)a              Audited             Audited ($ millions)b

                                           65                   $161.3                  50                       $103.0
 Foreign organizations
                                           68                   $136.4                  42                         $75.3
 U.S. nonprofit organizations
                                            4                      $9.4                 4                           $6.7
 U.S. for-profit companies

 Public international
                                            3                      $8.3                 3                           $6.6
 organizations

 TOTAL                                    140                   $315.4                  99                       $191.6
 Source: SIGAR analysis of State data. Totals affected by rounding.
 Notes:
 a Total value as of August 20, 2012; updated with amendments from the Public Affairs Section of Embassy Kabul as of

 December 10, 2012.
 b Disbursement amounts were obtained from several different bureaus and offices dating from October to December 2012.

 For seven awards missing disbursement data, SIGAR estimated disbursement amounts to be equal to obligated amounts.




6 Of the $315.3 million obligated through 140 awards, $277.6 million had been disbursed. State did not have

disbursement records for seven awards valued at $16.7 million; for these awards, SIGAR estimated the disbursed value at
the obligated amount.
7 All disbursement figures in this report were obtained from several different bureaus and offices dating from October to

December 2012.




SIGAR Audit 13-12/State Department Grants and Cooperative Agreements                                                 Page 3
Most Awards to Foreign Organizations Have Not Been Audited Because State Lacks
Department-wide Policy
Unlike the U.S. Agency for International Development, which requires a financial audit of foreign award
recipients that spend more than $300,000 in agency-provided funding per year, State has no department-wide
policy requiring audits of grants awarded to foreign organizations. According to Grants Policy Directive 42, audit
reports can be an effective and valuable method for monitoring a recipient’s financial performance, particularly
with regard to the adequacy of internal controls and compliance with applicable laws and regulations. It is left
to bureaus and grant officers to determine whether to require audits of foreign organizations. Consequently,
bureaus within State have differing financial audit requirements for assistance awards to foreign recipients.
State provided $139.7 million to 25 foreign organizations through 65 assistance awards between fiscal years
2002 to 2011. These awards were issued by the Bureau of Population, Refugees, and Migration (PRM); the
Political-Military Bureau’s Office of Weapons Removal and Abatement (PM/WRA); and the Public Affairs Section
(PAS) of the U.S. embassy in Kabul. As shown in table 2, 50 of those awards totaling $103 million in
disbursements have not undergone financial audits.


Table 2 - State Assistance Awards to Foreign Organizations Not Audited
              Reason(s) Not Audited                       Awards Not Audited   Funding Not Audited ($millions)

                                                                     23                          $48.6
Award made prior to creation of bureau requirement
                                                                     19                          $38.7
No financial audit requirement
                                                                      6                          $10.4
Audit not yet due
                                                                      2                           $5.3
Organization no longer funded

TOTAL                                                                50                         $103.0
Source: SIGAR analysis of State data. Totals affected by rounding.


Audits of these 50 awards were not conducted largely because either (1) bureau-wide audit requirements were
established after the award had been made, or (2) State’s department-wide policy, Guidelines for Application
and Administration for Federal Assistance Awards, does not specifically require that foreign organizations
receiving State-funded assistance be audited. However, the Guidelines do require that the foreign
organizations maintain financial records in case the U.S. government decides to conduct audits. In lieu of a
department-wide policy requiring that foreign organizations be audited, two bureaus established their own
requirements for conducting such audits.
    •    PRM requires all foreign organizations receiving assistance funds to ensure that the funds are
         included in audits performed by independent public accountants in accordance with U.S. government
         auditing standards established by the Comptroller General of the United States. The bureau awarded
         funds to three separate foreign organizations that received a total of six awards. These organizations
         filed audits as required and, as a result, five of the bureau’s awards have been audited. One award
         had not been audited because the organization’s audit was not yet due.
    •    PM/WRA instituted a policy in 2010, which required grantees, both foreign and domestic, to be
         audited if they spend more than $500,000 in State funds each year. In 2011, the bureau removed the
         threshold, requiring all grantees to be audited on a yearly basis regardless of the amount of funds
         expended. The bureau issued 38 awards to foreign organizations, of which 10 were audited. The




SIGAR Audit 13-12/State Department Grants and Cooperative Agreements                                       Page 4
           remaining 28 awards were not included in audits either because the organization’s audit was not yet
           due or because the award was made prior to the bureau’s requirement being instituted.
The Public Affairs Section of the U.S. Embassy in Kabul does not have a policy requiring financial audits for
assistance awards to foreign organizations. Consequently, only one of the section’s 21 awards to foreign
organizations included a requirement for a financial audit. 8
Table I in appendix II lists the 25 foreign recipient organizations and information on the awards they received
from State from 2002 to 2011.


Most U.S. Nonprofit Organization Awards Have Not Been Audited Primarily Because
They Were Not Considered Major Programs
From 2002 to 2011, State provided 68 assistance awards of $1 million or more to 28 U.S. nonprofit
organizations. As shown in table 3, 42 of these awards have not undergone financial audits. As a result,
$75.3 million disbursed from $136.4 million in assistance funds awarded to U.S. nonprofit organizations has
not been audited. Table II in appendix III lists the 28 U.S. nonprofit organizations and information on the
awards they received from State from 2002 to 2011.
As discussed earlier, auditors conducting A-133 audits are required to identify each federal award and
determine whether that award is part of a major program. OMB Circular A-133 also allows federal agencies to
request that a particular federal program be audited as a major program as part of an A-133 audit, in lieu of
the agency conducting or arranging for a separate audit. 9
Although 24 of the 28 U.S. nonprofit organizations in our review had an A-133 audit conducted as required, 10
29 awards totaling $46.4 million made to those organizations were excluded from audit testing because A-133
auditors did not consider them to be part of a major program. This occurred because the awards received
relatively little funding compared to the total amount of funding that these organizations received from other
federal sources.
In addition, three organizations receiving three separate awards totaling $8 million did not file OMB Circular A-
133 audits as required because of unclear State guidance. For example, rather than include audit provisions
directly in award agreements, State refers recipient organizations to its website for guidance. The website has
terms and conditions in two categories—overseas or domestic—but does not specify that the description refers
to the locations of the organization’s headquarters, rather than to the location in which the award is being
implemented. Consequently, in two instances, grant officers misdirected organizations to the wrong category in
the award agreement. In the third instance, the recipient organization applied the terms and conditions from
the wrong category because of the lack of clarity in how to categorize organizations. Accordingly, three awards
totaling $8 million were not included in an audit.




8 A Public Affairs Section grants officer inserted an audit requirement into the grant agreement for one of the 21 awards to
foreign organizations because it was deemed to be a “high-risk” recipient. As part of its financial audit program, SIGAR
agreed to oversee the financial audit for that award, but the award was terminated before the audit could begin.
9   OMB Circular A-133, Subpart A, Section 215(c).
10 One of the 24 organizations had not filed an A-133 audit report, but upon contacting the organization, SIGAR learned

that it had not expended over the $500,000 threshold in 2011, thus it was not required to have an A-133 audit conducted
for that year.




SIGAR Audit 13-12/State Department Grants and Cooperative Agreements                                                 Page 5
Another 10 awards totaling $20.9 million were not
audited for various reasons.                                 Table 3 - State Assistance Awards to U.S. Nonprofit
                                                             Organizations Not Audited
    •    Six awards had not been audited because
         the organizations had not yet completed or                                      Awards          Funding Not
         filed their A-133 audit reports, which could           Reason(s) Not              Not              Audited
         have included a closer review of the awards              Audited                Audited          ($millions)
         if the auditors considered them to be part
         of a major program.                                 Not Considered Major
                                                                                          29                $46.4
    •    For three awards, the receiving                     Program
         organizations had completed and filed their
                                                             Organization Unaware
         A-133 audit reports, but because these                                            3                 $8.0
                                                             of Audit Requirement
         reports had coding issues that did not
         specifically identify the individual awards,                                      6                $14.8
                                                             Audit Not Yet Due
         we were unable to verify whether they had
                                                                                           3                 $4.4
         been audited. 11                                    Coding Issues
    •    One organization filed an OMB Circular A-
                                                             Organization
         133 audit for one year as required but not                                        1                 $1.7
                                                             Dissolved
         for the second required year because the
         organization’s president died, after which          TOTAL                        42                $75.3
         the organization dissolved. As a result, an         Source: SIGAR analysis of State data. Totals affected by
         award for $1.7 million was not included in          rounding.
         an audit.


Awards Totaling $6.7 Million in Disbursements to U.S. For-Profit Companies Have
Not Been Audited Because of Unclear State Guidelines
None of the four assistance awards, totaling $6.7 million in disbursements, provided to four U.S. for-profit
companies have been audited because State’s Guidelines does not directly address audit requirements for
assistance awards provided to for-profit companies. While the Guidelines reference OMB Circular A-133 for
additional audit guidance, the Circular applies only to U.S. nonprofit organizations; no additional information is
referenced that specifically addresses for-profit companies. However, SIGAR noted that the Guidelines do
require that “recipients of federal assistance, regardless of amount or period of performance, are subject to
federal audit during the award’s period of performance.” As a result of unclear audit requirements in the
Guidelines, the four awards were not audited. Table III in appendix IV lists the four U.S. for-profit companies
and information on the awards they received from State from 2002 to 2011.




11 In these reports, auditors listed expenditures by program code as denoted by the Catalog of Federal Domestic

Assistance. This classification grouped programs together by type of program to select which major programs to audit.
While State does track the Catalog codes and they are listed for each award, multiple awards are often included under one
Catalog category. For example, code 19.519 indicates an award is part of the Overseas Refugee Assistance Program for
Near East and South Asia, and code 19.800 describes the Weapons Removal and Abatement program. These codes do not
denote a specific country, and several awards are part of the 19.519 and 19.800 programs.




SIGAR Audit 13-12/State Department Grants and Cooperative Agreements                                                Page 6
Awards Totaling $6.6 Million in Disbursements to Public International Organizations
Have Not Been Audited Because the Decision to Audit Rests with the PIO
None of the $6.6 million provided through three awards to two public international organizations has been
audited. State generally relies on public international organizations to audit contributions in accordance with
their own policies and procedures. 12 However, public international organizations do not always have financial
audits conducted of each federal award or share the results of such audits if they do occur. Consequently,
State was unable to provide evidence that any financial audits were conducted for the three awards. Upon
contacting the two public international organizations, we learned that no financial audits of these awards had
been conducted. Table IV in appendix V lists the two PIOs and information on the awards they received from
State from 2002 to 2011.


CONCLUSION

From 2002 to 2011, State made 140 assistance awards of $1 million or more, valued at $315.3 million, to
recipient organizations for Afghanistan reconstruction activities, but 99 of these awards have not been
audited. Although financial audits were not necessarily required for most of these awards, State had the
discretion to do so and would have significantly strengthened its oversight of these awards had it exercised
that discretion. Moreover, State has not clearly communicated to its bureaus or award recipients when
financial audits are required. For example, State lacks agency-wide guidance on audit requirements for
assistance awards to foreign organizations, instead allowing individual bureaus to develop inconsistent
policies. State has also not ensured that its terms and conditions are clear regarding audit responsibilities for
recipient organizations based on whether they are located in the United States or overseas. We believe that
State should take steps to strengthen its audit processes to ensure that its U.S. appropriated funds are
properly used and accounted for.


RECOMMENDATIONS

To strengthen accountability over State-funded assistance awards provided to U.S. non-profit organizations,
U.S. for-profit companies, foreign organizations, and public international organizations for Afghanistan
reconstruction, we recommend the U.S. Secretary of State:

       1. Establish a policy requiring audits of assistance awards to foreign organizations receiving State-
          funded assistance on an annual basis using a risk-based approach.
       2. Clarify guidance to recipient organizations receiving State-funded assistance awards to specify which
          standard terms and conditions apply—domestic or overseas—based on whether the recipient
          organization is U.S.- or foreign-based.

       3. Develop a system to identify and prioritize awards to U.S. nonprofit organizations to determine
          whether State should (a) request that awards be audited as major programs by the organization’s
          OMB Circular A-133 auditors., or (b) contract for award-specific financial audits of those awards.

       4. Revise State guidance to ensure that audit requirements for State-funded assistance awards made to
          U.S. for-profit companies are clear and consistent.



12   Department of State, Instructions for PIO Specifics, provided by Office of Procurement Executive on December 6, 2012.




SIGAR Audit 13-12/State Department Grants and Cooperative Agreements                                                Page 7
AGENCY COMMENTS

In written comments on a draft of this report, State generally agreed with our recommendations and noted that
financial audits are an important tool to ensure that federal funds are properly spent and efficiently used. State
said that the draft report highlighted the need for it to continue its collaboration with other foreign affairs
agencies to share and develop best practices that enhance the oversight of federal assistance in the overseas
environment.
State commented that it has already taken steps to strengthen its financial audits of grants. In particular, State
is in the process of implementing recommendations made in our July 2012 audit of 21 large grants awarded
by the Public Affairs Section of the U.S. Embassy in Kabul and is re-soliciting a contract for financial auditing
services for approximately 22 grants. 13 The solicitation is expected to be posted within the next two months. In
addition, State said that it is coordinating audit coverage with other organizations that have awarded audit
contracts in Afghanistan.
With respect to the recommendations in this report, State agreed with our first two recommendations.
Specifically, State said that it will develop a risk-based audit policy that addresses foreign organizations
receiving State-funded assistance on an annual basis. State also noted that it will work to clarify department
guidance to recipient organizations and define which standard terms and conditions apply to awards to those
organizations. In addition, State commented that it agreed with the intent of our third recommendation to
develop a system to identify and prioritize awards to U.S. nonprofit organizations for audit consideration.
Although State noted that identification and prioritization of awards for audits is primarily a training issue for its
program and grants officers, the department stated that it will provide updates to training materials, grants
policy directives, and other communication channels as needed. Finally, State accepted our fourth
recommendation to revise its guidance to ensure that audit requirements for U.S. for-profit companies are
clear and consistent. State said that it will work with its procurement policy to rectify any gaps in U.S. for-profit
firm audit requirements. We believe that these actions, if properly implemented, will encourage the proper and
efficient use of appropriated funds.
State’s comments are reprinted in appendix VI.




13 SIGAR Audit-12-13, Selected Public Diplomacy Awards Mostly Achieved Objective, but Embassy Can Take Steps to

Enhance Grant Management and Oversight, July 2012.




SIGAR Audit 13-12/State Department Grants and Cooperative Agreements                                           Page 8
APPENDIX I - SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan Reconstruction’s
(SIGAR) review of the extent to which Department of State (State)-funded grants and cooperative agreements
for Afghanistan reconstruction had undergone financial audits. SIGAR had intended to include reconstruction
contracts in addition to grants and cooperative agreements in its original scope of work. However, State was
unable to provide reliable contract data; therefore, this report does not include information on the extent to
which State-funded contracts have been audited.
To determine the extent to which financial audits were conducted for State-funded grants and cooperative
agreements for Afghanistan reconstruction, we obtained from State a list of awards, valued at $1 million or
more, that were issued from January 2002 to August 2012. State provided a list of 122 grants and cooperative
agreements it awarded to foreign organizations, U.S. nonprofit organizations, U.S. for-profit companies, and,
public international organizations, taken from State’s Grant Data Management System.
To ensure data completeness and accuracy of computer-processed data, we asked each of the five awarding
State bureaus represented to cross-check the list from the Grant Data Management System with bureau-
tracked data. Based on our analysis, we removed 22 awards and added 40 awards while correcting for data
discrepancies, eliminating awards that were not reconstruction or were duplicative and adding data not within
the date ranges captured by the Grant Data Management System. The bureaus also provided us with
disbursement information for the awards in our scope. Seven awards’ records were missing, for which we
estimated disbursements at the obligated value. Our final list of awards included 140 awards made from 2002
to 2011 with obligations totaling $315.3 million and disbursements totaling $277.6 million.
To determine State’s requirements to conduct financial audits of its assistance awards, we reviewed laws,
regulations, policies, standard operating procedures, and other guidance relating to financial audit
requirements of State funding recipients. We reviewed State’s Guidelines for Application and Administration
for Federal Assistance Awards, domestic and overseas terms and conditions for federal assistance awards,
and Federal Assistance Policy Handbook. We reviewed multiple Grants Policy Directives from the Office of the
Procurement Executive as well as terms and conditions specific to individual bureaus. At the federal level, we
reviewed OMB Circular A-50, Audit Follow-up; Office of Management and Budget (OMB) Circular A-110, Uniform
Administrative Requirements for Grants and Other Agreements with Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations; OMB Circular A-123, Management’s Responsibility for Internal
Control; and OMB Circular A-133, Audits of States, Local Governments and Non-Profit Organizations.
With respect to assessing internal controls, we reviewed compliance with the OMB Circulars A-133, A-123,
A-110, and A-50 as part of our objective. The results of this assessment are included in the body of this report.
To determine the extent to which financial audits have been conducted for grants and cooperative agreements,
we confirmed the audit status for each award with State and collected audit reports where available. For U.S.
nonprofit organizations, we used the Federal Audit Clearinghouse to determine whether organizations filed
OMB Circular A-133 audit reports. For compliant U.S. nonprofit organizations, we analyzed audit reports to
determine whether or not the awards in our universe had been labeled part of a major program and therefore
been individually audited. We confirmed noncompliance by requesting audit report copies from State, inquiring
with OMB about missing records for these organizations, and directly contacting recipient organizations.
Lastly, we interviewed officials in State’s Office of Administration/Acquisitions, Logistics Management, and
Office of the Procurement Executive; Bureau of International Law and Narcotics; Political-Military Bureau’s
Office of Weapons Removal and Abatement; Public Affairs Section of Embassy Kabul and Bureau of South and
Central Asian Affairs/Press and Public Diplomacy; Bureau of Population, Refugees, and Migration; and Office of
the Inspector General. We also contacted officials at the United Nations Mine Action Service and the North
Atlantic Treaty Organization.




SIGAR Audit 13-12/State Department Grants and Cooperative Agreements                                       Page 9
We conducted our audit work in Kabul, Afghanistan, and Washington, D.C., from August 2012 to June 2013, in
accordance with generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. This audit was performed by SIGAR under the
authority of Public Law 110-181, and the Inspector General Act of 1978, as amended.




SIGAR Audit 13-12/State Department Grants and Cooperative Agreements                                   Page 10
         APPENDIX II - STATE-FUNDED ASSISTANCE TO FOREIGN ORGANIZATIONS

Table I - State Assistance Awards to Foreign Organizations, Valued at $1 Million or More (2002-2011 in $ million)

                                                 Awards                        Total      Funding            Reason(s)
                                      Total                    Amount
      Awardees            Bureaua                  Not                       Funding        Not           Awards/Funding
                                     Awards                   Obligatedb
                                                 Audited                    Disbursedcd   Audited           Not Audited

                                                                                                    Awards were made prior to
Deming Agency for
                          PM/WRA            9            8          $24.4         $24.4     $20.4   the creation of a bureau
Afghanistan (DAFA)
                                                                                                    audit requirement

                                                                                                    Awards were made prior to
Mine Clearance
                          PM/WRA            9            3          $21.0         $21.0      $6.5   the creation of a bureau
Planning Agency (MCPA)
                                                                                                    audit requirement

                                                                                                    6 awards were made prior to
Organization for Mine
                                                                                                    the creation of a bureau
Clearance and Afghan      PM/WRA            8            7          $16.4         $16.3     $13.3
                                                                                                    audit requirement, 1 award's
Rehabilitation (OMAR)
                                                                                                    audit is not yet due

                                                                                                    Awards were made prior to
Afghan Technical
                          PM/WRA            5            3          $14.1         $14.1      $6.1   the creation of a bureau
Consultants
                                                                                                    audit requirement

HUDA Development                                                                                    No financial audit
                          PAS               3            3          $13.7          $5.4      $5.4
Organization                                                                                        requiremente

                                                                                                    No financial audit
Cetena Group              PAS               2            2           $8.4          $6.4      $6.4
                                                                                                    requirement

                                                                                                    2 awards were made prior to
Mine Detection Dog                                                                                  the creation of a bureau
                          PM/WRA            4            4           $7.6          $7.6      $7.6
Center (MDC)                                                                                        audit requirement, 2 awards'
                                                                                                    audits are not yet due.

Government Media and
                                                                                                    State stopped funding GMIC
Information Center        PAS               2            2           $7.0          $5.3      $5.3
                                                                                                    awards
(GMIC)

                                                                                                    No financial audit
Shamshad TV               PAS               2            2           $6.5          $6.5      $6.5
                                                                                                    requirement

Sayed Majidi
                                                                                                    No financial audit
Architecture and Design   PAS               1            1           $6.3          $3.1      $3.1
                                                                                                    requirement
(SMAD)

                                                                                                    No financial audit
Chinar Project            PAS               2            2           $4.1          $3.1      $3.1
                                                                                                    requirement

Agency for Technical
Cooperation and           PRM               3            0           $4.0          $4.0      $0.0   n/a
Development



         SIGAR Audit 13-12/State Department Grants and Cooperative Agreements                                 Page 11
Table I - State Assistance Awards to Foreign Organizations, Valued at $1 Million or More (2002-2011 in $ million)

                                                       Awards                        Total        Funding              Reason(s)
                                          Total                       Amount
        Awardees            Bureaua                      Not                       Funding          Not             Awards/Funding
                                         Awards                      Obligatedb
                                                       Audited                    Disbursedcd     Audited             Not Audited

Social Development and
                                                                                                              No financial audit
Research Organization      PAS                   1             1           $3.9           $2.1         $2.1
                                                                                                              requirement
For Afghans (SDROA)

                                                                                                              1 award made prior to
Danish Demining Group      PM/WRA                2             2           $3.0           $3.0         $3.0   bureau audit requirement; 1
                                                                                                              award audit not yet due.

                                                                                                              No financial audit
BBC World Service Trust    PAS                   1             1           $3.0           $1.5         $1.5
                                                                                                              requirement

TearFund                   PRM                   2             1           $2.8           $2.7         $1.0   Audit not yet due

Afghanistan Research
                                                                                                              No financial audit
and Development            PAS                   1             1           $2.5           $2.2         $2.2
                                                                                                              requirement
Institute

                                                                                                              No financial audit
Kochah NPO                 PAS                   1             1           $2.5           $2.0         $2.0
                                                                                                              requirement

                                                                                                              No financial audit
Pajhwok Afghan News        PAS                   1             1           $1.9           $1.9         $1.9
                                                                                                              requirement

                                                                                                              No financial audit
Khabardar Ltd.             PAS                   1             1           $1.5           $1.5         $1.5
                                                                                                              requirement

Norwegian Refugee
                           PRM                   1             0           $1.5           $1.4         $0.0   n/a
Council

Swiss Foundation for
                           PM/WRA                1             1           $1.5           $1.2         $1.2   Audit not yet due
Mine Action (FSD)

Media Support                                                                                                 No financial audit
                           PAS                   1             1           $1.4           $1.4         $1.4
Partnership Afghanistan                                                                                       requirement

                                                                                                              No financial audit
Afghan TV                  PAS                   1             1           $1.2           $0.6         $0.6
                                                                                                              requirement

Afghan Community                                                                                              No financial audit
                           PAS                   1             1           $1.1           $1.0         $1.0
Consultancy                                                                                                   requirement

TOTAL                                           65            50         $161.3        $139.7       $103.0
Source: SIGAR analysis of State data. Totals affected by rounding.
Notes: a Acronyms are as follows: PM/WRA for the Political-Military Bureau's Office of Weapons Removal and Abatement, PRM for the Bureau of
Population, Refugees, and Migrations, INL for the International Narcotics and Law Enforcement Bureau, PAS for the Public Affairs Section of
Embassy Kabul, and AQM for the Office of Acquisitions. b Totals as of August 20, 2012. Updated with amendments from PAS as of December
10, 2012. c PM/WRA totals as of October 15, 2012; PRM totals as of November 13, 2012; PAS totals as of December 13, 2012. d For the 3
awards missing disbursement records, we estimated the disbursed amounts at the obligated amounts. e SIGAR is currently conducting a
financial audit of this organization.



         SIGAR Audit 13-12/State Department Grants and Cooperative Agreements                                           Page 12
    APPENDIX III - STATE-FUNDED ASSISTANCE TO U.S. NONPROFIT ORGANIZATIONS

Table II - State Assistance Awards to Nonprofit Organizations, Valued at $1 Million or More (2002-2011 in $ million)
                                           Awards                                    Funding             Reason(s)
                                 Total                 Amount        Total Funding
    Awardees          Bureaua                Not                                       Not            Awards/Funding
                                Awards                Obligatedb      Disbursedcd
                                           Audited                                   Audited            Not Audited

The HALO Trust        PM/WRA          14       10         $34.3           $34.3        $22.3    Two awards' audits are not
(Hazardous Areas                                                                                yet due; the other eight
Life Support                                                                                    were not considered major
Organization)                                                                                   programs

International          PRM             6        4          $9.8               $9.8      $6.1    Not considered a major
Rescue Committee                                                                                program

Clear Path            PM/WRA           3        0          $8.4               $8.4      $0.0    n/a
International

United Methodist       PRM             5        3          $7.3               $6.9      $3.8    Not considered a major
Committee on                                                                                    program
Relief

International          PRM             5        2          $6.9               $6.8      $2.8    One award's audit is not yet
Medical Corps                                                                                   due, one award not
                                                                                                considered a major
                                                                                                program

Aga Khan                INL            1        0          $6.0               $3.4      $0.0    n/a
Foundation

Women for Afghan        INL            1        1          $5.7               $4.4      $4.4    Not yet due
Women

Cooperative            PRM             3        3          $5.1               $5.1      $5.1    Not considered a major
Housing                                                                                         program
Foundation
International (CHF)

University of           INL            1        1          $5.1               $3.9      $3.9    Not considered a major
Washington                                                                                      program

Global Rights           INL            1        0          $4.7               $3.3      $0.0    n/a

Mercy Corps            PRM             3        1          $4.6               $4.3      $1.7    Not considered a major
                                                                                                program

Institute for the      PAS             1        1          $4.5               $4.4      $4.4    Organization was unaware
Study of Human                                                                                  of audit requirements
Knowledge                                                                                       because of misleading
                                                                                                terms and conditions




       SIGAR Audit 13-12/State Department Grants and Cooperative Agreements                                Page 13
Table II - State Assistance Awards to Nonprofit Organizations, Valued at $1 Million or More (2002-2011 in $ million)
                                           Awards                                    Funding           Reason(s)
                                 Total                 Amount        Total Funding
    Awardees         Bureaua                 Not                                       Not          Awards/Funding
                                Awards                Obligatedb      Disbursedcd
                                           Audited                                   Audited          Not Audited

Shelter for Life       PRM             3        1          $4.0               $3.9      $1.8    Audit report only uses
                                                                                                Catalog of Federal
                                                                                                Domestic Assistance codes,
                                                                                                so unable to identify if
                                                                                                award had been audited.

Catholic Relief        PRM             3        2          $3.6               $3.4      $2.2    Not considered a major
Services                                                                                        program

Cooperative for        PRM             3        3          $3.3               $3.2      $3.2    Not considered a major
Assistance Relief                                                                               program
Everywhere (CARE)

Afghan Center          PRM             2        1          $2.9               $2.9      $1.7    Organization's president
                                                                                                died and organization
                                                                                                dissolved

Church World           PRM             2        1          $2.7               $2.2      $1.0    Not yet due
Service, Inc

George Mason           PAS             1        1          $2.7               $1.9      $1.9    Audit report only uses
University                                                                                      Catalog of Federal
                                                                                                Domestic Assistance codes,
                                                                                                so unable to identify if
                                                                                                award had been audited.

Campaign for           PAS             1        1          $2.1               $2.1      $2.1    Organization was unaware
Social Justice                                                                                  of audit requirements
                                                                                                because of misleading
                                                                                                terms and conditions

International           INL            1        1          $1.9               $0.7      $0.7    Not yet due
Association of
Women Judges

Washington State       PAS             1        1          $1.7               $1.6      $1.6    Not considered a major
University                                                                                      program

The Hamilton           PAS             1        1          $1.5               $1.5      $1.5    Organization was unaware
Foundation                                                                                      of audit requirements
                                                                                                because of misleading
                                                                                                terms and conditions

Ball State             PAS             1        1          $1.4               $0.7      $0.7    Audit report only uses
University                                                                                      Catalog of Federal
                                                                                                Domestic Assistance codes,
                                                                                                so unable to identify if
                                                                                                award had been audited.




       SIGAR Audit 13-12/State Department Grants and Cooperative Agreements                                Page 14
Table II - State Assistance Awards to Nonprofit Organizations, Valued at $1 Million or More (2002-2011 in $ million)
                                               Awards                                          Funding               Reason(s)
                                     Total                   Amount        Total Funding
    Awardees           Bureaua                   Not                                             Not              Awards/Funding
                                    Awards                  Obligatedb      Disbursedcd
                                               Audited                                         Audited              Not Audited

Save the Children        PRM               1         1           $1.4             $1.3             $1.3     Considered a major
                                                                                                            program, but audit not
                                                                                                            conducted due to unsafe
                                                                                                            environment in
                                                                                                            Afghanistane

Physicians for           AQM               1         0           $1.3             $1.1             $0.0     n/a
Human Rights

Stanford University       INL              1         1           $1.3             $1.1             $1.1     Not considered a major
                                                                                                            program

ChildFund                PRM               1         0           $1.2             $1.2             $0.0     n/a
International

The Asia                 AQM               1         0           $1.0             $0.8             $0.0     n/a
Foundation

TOTAL                                     68        42         $136.4          $124.6            $75.3
Source: SIGAR analysis of State data. Totals affected by rounding.
Notes:
a Acronyms are as follows: PM/WRA for the Political-Military Bureau's Office of Weapons Removal and Abatement, PRM for the Bureau of
Population, Refugees, and Migrations, INL for the International Narcotics and Law Enforcement Bureau, PAS for the Public Affairs Section
of Embassy Kabul, and AQM for the Office of Acquisitions. b Totals as of August 20, 2012. Updated with amendments from PAS as of
December 10, 2012. c PM/WRA totals as of October 15, 2012; PRM totals as of November 13, 2012; PAS and AQM totals as of December
13, 2012; INL totals as of December 20, 2012. d For the 3 awards missing disbursement records, we estimated disbursed amounts at the
obligated amounts. e Grouped with “not considered a major program” for subtotals because the treatment is the same.




         SIGAR Audit 13-12/State Department Grants and Cooperative Agreements                                          Page 15
    APPENDIX IV - STATE-FUNDED ASSISTANCE TO FOR-PROFIT COMPANIES

Table III - State Assistance Awards to For-Profit Companies, Valued at $1 Million or More (2002-2011 in $ million)

                                                   Awards                        Total         Funding          Reason(s)
                                       Total                     Amount
     Awardees           Bureaua                      Not                       Funding           Not         Awards/Funding
                                      Awards                    Obligatedb
                                                   Audited                    Disbursedc       Audited         Not Audited


Scholastic, Inc.           PAS            1            1             $3.1          $0.6             $0.6      Unclear State
                                                                                                              guidelines

Asia Consultancy           PAS            1            1             $2.7          $2.7             $2.7      Unclear State
Group                                                                                                         guidelines

Strategic Social, LLC      PAS            1            1             $1.9          $1.9             $1.9      Unclear State
                                                                                                              guidelines

Public Affairs Media       PAS            1            1             $1.7          $1.5             $1.5      Unclear State
Group                                                                                                         guidelinesd

TOTAL                                     4            4             $9.4          $6.7             $6.7
Source: SIGAR analysis of State data. Totals affected by rounding.
Notes:
a Acronyms   are as follows: PM/WRA for the Political-Military Bureau's Office of Weapons Removal and Abatement, PRM for the
Bureau of Population, Refugees, and Migrations, INL for the International Narcotics and Law Enforcement Bureau, PAS for the
Public Affairs Section of Embassy Kabul, and AQM for the Office of Acquisitions. bTotals as of August 20, 2012. Updated with
amendments as of December 10, 2012. c Totals as of December 13, 2012. d State is in the process of disbarring this organization.




    SIGAR Audit 13-12/State Department Grants and Cooperative Agreements                                             Page 16
         APPENDIX V - STATE-FUNDED ASSISTANCE TO PUBLIC INTERNATIONAL
         ORGANIZATIONS

Table IV - State Assistance Awards to Public International Organizations, Valued at $1 Million or More
(2002-2011 in $ million)

                                                  Awards                        Total         Funding            Reason(s)
                                       Total        Not         Amount        Funding           Not           Awards/Funding
     Awardees            Bureaua      Awards      Audited      Obligatedb    Disbursedcd      Audited           Not Audited

United Nations Mine       PM/WRA             2             2         $5.1         $5.1           $5.1     No Department of State
Action Service                                                                                            financial audit
(UNMAS)                                                                                                   requirement, no audit
                                                                                                          report received from PIO

North Atlantic Treaty          PAS           1             1         $3.3         $1.5           $1.5     No Department of State
Organization (NATO)                                                                                       financial audit
                                                                                                          requirement, no audit
                                                                                                          report received from PIO

TOTAL                                        3             3         $8.3         $6.6           $6.6
Source: SIGAR analysis of State data. Totals affected by rounding.
Notes:
a Acronyms  are as follows: PM/WRA for the Political-Military Bureau's Office of Weapons Removal and Abatement, PRM for the Bureau of
Population, Refugees, and Migrations, INL for the International Narcotics and Law Enforcement Bureau, PAS for the Public Affairs
Section of Embassy Kabul, and AQM for the Office of Acquisitions. b UNMAS totals as of August 20, 2012; NATO as of December 10,
2012. c UNMAS totals as of October 15, 2012; NATO as of October 15, 2012. d For the award missing disbursement records, we
estimated the disbursed amount at the obligated amount.




         SIGAR Audit 13-12/State Department Grants and Cooperative Agreements                                          Page 17
APPENDIX VI - AGENCY COMMENTS

                                                            United S tates Department of State
         .
      "<- m:c ;   <

                                                            Wushington, D.C. 20$20

    ~.   ,,r:J                                              WWW. J(Q/~.g(}\1




                                                                               June 28, 2013

       Jolm F. Sopko
       Special Inspector General
       for Afghanistan Reconslnlction
       1550 Crystal Drive
       Arlington, VA 22202

       Dear Mr. Sopko,

       We appreciate the opportunity, consisl::nt with established practice, to review and
       provide comments on the dmft rcpon, ''Depanment of Stotc's Assistance Awards
       for Afghanistan RcconslnJCtion Activities Are Largely Unaudited."

        We agree that financial audits are an inportant lOOlto ensure that federal funds are
       properly and efficient!) used. FoUowilg up on previous work by SIGAR, we have
       already token step$ to strengthen our financial audits of grnnts. In August 20 II,
       SIGAR initiated an audit of twenty-ore large grants awarded by the Public Affairs
       Section (PAS) of Embassy Kabul. As a result, a July 2012 report from SlGAR
       recommended that PAS re-solicit a contract for financial audits that had been
       previously solicited, and coordinate w.th other organizations that have awarded
       audit contracts in Afghanistan. l.n response, PAS requested that the Regional
       Procurement Support Office in Frankfurt, Gennany, prepare a solicitation for a full
       and open competition to provide finantial auditing services for approximately 22
       grants for a 101al of $450,000 (at an a•eragc of$20,000/award using local
       affiliates of international auditing finDs). The selection of whicb grants to be
       audited will depend on a variety of factors, including risk assessment, size of the
       award, complexity, mmurity of the grmtee, level of ~nsitivity, among others. This
       solicitation is expected to be posted within the next two months. [t should be noted
       that the previously solicited contract c~nsidered contracting a U.S auditing finn;
       however the cost wos very high, about $200,000 per gmnt, and therefore deemed
       too costly. Additionally, PAS has since required some large grantees to perform
       internal audits on their O'l!anizations llndlor specific grants. which are reviewed by
       PAS.




SIGAR Audit 13-12/State Department Grants and Cooperative Agreements                             Page 18
                                                    2

         In addition, we would like to respond to the recommendations made by SIGAR in
         the draft report:

         "1 . Establish a policy requiring audits ofas.sistance m •.:ards to foreign
         organizations receiving State.funded assistance on an annual basis using a risk·
         based approach. "

         The State Department agrees with the recommendation and will develop a risk-
         based audit poHcy that addresses foreign organ57.ations receiving State funded
         assistance on an atmual basis.

         "2. Clarify guidance to recipient organizations receiving Sta.te-fimded assistance
         awards to specify which standard terms and conditions apply- domestic or
         overseas-based on ·whether the recipient organization is U.S. -or foreign-based "

         The State Department agrees ·with this recommoendation and will work to clearly
         define recipient orgaoizatiOn!i and which standard terms and conditions apply to
         awards to those organizations.

         "3. Daveiop a system to identify and prioritize awards to U.S. nonprofit
         organizations to determine whether State should (a) request that awards be
         audited as major prngrams by the organizations OMB Circular A-1 33 auditors, or
         (b) contmct for award-specific financial attdits of those award~. "

         The State Department agrees v.rith intent of the recommendation but the
         identification and prioritization of awards for audits is primarily a training issue for
         Program and Grants Officers ar State. The Department will provide updates to
         training materials, Grants Policy Directives, intemal/cxtemal communicatlon
         channels, and any other infonnallformal communication melhods as needed with
         respect to identifying and prioritizing awards for audits.

         " 4. Revise State guidance to ensure that audit rruJuirements for State-funded
         assisrance awards made to US. for-profit companies are clear and consistent. "

         The State Department accepts the recommendation and will work with
         Procurement policy to determine if there are any gaps in U .S. for-profit firm audit
         requirements.

         In closing. this report highlights the need for us to continue our collaboration with
         other foreign affair.; agencies to share and develop best practjccs that enhance the




SIGAR Audit 13-12/State Department Grants and Cooperative Agreements                                Page 19
SIGAR Audit 13-12/State Department Grants and Cooperative Agreements   Page 20
APPENDIX VII - ACKNOWLEDGMENTS

Jay Rollins, Senior Audit Manager
Arthur Granger, Auditor-in-Charge
Juli Digate, Analyst


The following staff provided analytical support:
Mia Bonarski, Methodologist




SIGAR Audit 13-12/State Department Grants and Cooperative Agreements   Page 21
                                  This inspection report was conducted
                                    under project code SIGAR-065A.




SIGAR Audit 13-12/State Department Grants and Cooperative Agreements     Page 22
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs              •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




              Public Affairs   Public Affairs Officer
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
